WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

James Alan Clark

20-300
Wendy Kristine Clark

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

D I am a member of the Bar of the Supreme Court of the United States.
J I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

September 22, 2020

(Type or print) Name

Karen D. Moore
El Mr.

Firm

D Mrs.

❑ Miss

Brewe Layman, P.S.

Address

3525 Colby Ave, Ste 333 P.O. Box 488

City & State
Phone

Li Ms.

Everett WA

425-252-5167

Zip
Email

98206-0488

karenm@brewelaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: James Alan Clark

RECEIVED
OCT 0 8 /020
OFFICE OF 14P-IE QLERK
SUPREME COUR .S.

